USCA11 Case: 20-13156

Date Filed: 04/02/2021

Page: 2 of 2

amended information; and (2) counsel failed to withdraw his waiver of his jury-trial right after the
state filed the amended information, which, according to Mr. Pierre, substantively amended the
original information. Reasonable jurists would not debate the denial of these claims. With respect
to Claim 1, a review of the trial court’s colloquy with Mr. Pierre regarding his waiver confirms
that he knowingly, intelligently, and voluntarily waived his right to a jury trial. With respect to
Claim 2, Mr. Pierre’s trial counsel testified at the evidentiary hearing that she discussed the
amended information with him, and at all times, he wanted a bench trial. She also testified that
the amended information did not substantively change the original information and did not affect
her preparation of the case. Accordingly, he failed to show deficient performance or prejudice.
In Claims 3 and 4, Mr. Pierre argued that counsel misadvised him about his right to testify
and failed to seek suppression of his confession. Reasonable jurists would not debate the district
court’s determination that these claims are procedurally defaulted. In his counseled appeal from
the denial of his Fla. R. Crim. P. 3.850 motion, Mr. Pierre abandoned Claims 3 and 4 by not raising
them in his brief. He therefore did not exhaust all state court remedies that were available to him.
See 28 U.S.C. § 2254(b); Leonard v. Wainwright, 601 F.2d 807, 808 (5th Cir. 1979). In addition,
he has not shown cause and prejudice for his default, or that a fundamental miscarriage of justice
will result if these claims are not heard. See Martinez v. Ryan, 566 U.S. 1, 16 (2012); Coleman v.
Thompson, 501 U.S. 722, 749-50 (11th Cir. 1991).
Accordingly, Mr. Pierre’s COA motion is DENIED.

/s/ Jill Pryor___________
UNITED STATES CIRCUIT JUDGE

2

c
Case: 0:18-cv-61112-MGC

Do^^-07/23/2020

SOUTHERN DISTRICT OF FLORIDA

Page l-0f 1

APPEND1X-B

Case No: 18-61112-Civ-COOKE/RFID
LUCKNER PIERRE,
Petitioner,
vs.

STATE OF FLORIDA,
Respondent.
ORDER. ADOPTING REPORT OF MAGISTRATE JUDGE
THIS MATTER was referred to the United States Magistrate Judge Lisette M. Reid under 28
U.S.C. § 636(b)(1)(B), the Rules Governing Section 2254 Habeas Corpus in the United States District
Courts, and S.D. Fla. Admin. Order 2019-02, for a ruling on all pre-trial, non-dispositive matters and
for a Report and Recommendation on any dispositive matters. See ECF No. 2.
On March 20, 2020, Judge Reid issued a Report recommending that this Court: 1) deny the
Petition for Writ of Habeas Corpus under 28 U.S.C. § 2254; and 2) decline to issue a certificate of
appealability. ECF No. 19. Petitioner filed his objections to Judge Reid’s Report on May 8, 2020.
ECF No. 22. The Court has reviewed Judge Reid’s Report, Petitioner’s Objections, the record, and
the relevant legal authorities.
It is therefore ORDERED and ADJUDGED as follows:
•

This Court AFFIRMS and ADOPTS Judge Reid’s Report and DENIES the Petition
for Writ of Habeas Corpus under 28 U.S.C. § 2254.

•

This Court DENIES a Certificate of Appealability.

•

The Clerk will CLOSE this case.

DONE and ORDERED in chambers, at Miami;, Florida, this 21st day of July 2020.

OAjCW
MARCIA G. COOKE
United States District Judge
Copies furnished to:
Lisette M. Reid, U.S. Magistrate Judge
Luckner Pierre, pro se
Counsel of record

' c*
U.S. District Court - Southern District of Florida

Luckner Pierre W41601
Everglades Correctional Institution
Inmate Hail/Parcels
1599 SW 187th Avenue
Miami, FL 33194
Case: 0:18-cv-61112-MGC #23

3 pages

Thu Jul 23 23:56:08 2020

IMPORTANT: REDACTION REQUIREMENTS AND PRIVACY POLICY
Note: This is NOT a request for information.
Do NOT include personal identifiers in documents filed with the Court, unless
specifically permitted by the rules or Court Order. If you MUST include personal
identifiers, ONLY include the limited information noted below:
• Social Security number: last four digits only
• Taxpayer ID number: last four digits only
• Financial Account Numbers: last four digits only
• Date of Birth: year only
• Minor's name: initials only
• Home Address: city and state only (for criminal cases only).
Attorneys and parties are responsible for redacting (removing) personal identifiers from
filings. The Clerk's Office does not check filings for personal information.
Any personal information included in filings will be accessible to the public over the
internet via PACER.
For additional information, refer to Fed. R. Civ. P. 5.2 and Fed. R. Crim. P. 49.1.
Also see the CM/ECF Administrative Procedures located on the Court's website
www.flsd.uscourts.gov.
IMPORTANT: REQUIREMENT TO MAINTAIN CURRENT MAILING ADDRESS AND CONTACT INFORMATION
Pursuant to Administrative Order 2005-38, parties appearing pro se and counsel appearing
pro hac vice must file, in each pending case, a notice of change of mailing address or
contact information whenever such a change occurs. If court notices sent via the U.S. .mail'
are returned as undeliverable TWICE in a case, notices will no longer be sent to that party
until a current mailing address is provided.
IMPORTANT:

ADDITIONAL TIME TO RESPOND FOR NON-ELECTRONIC SERVICE

Additional days to respond may be available to parties serviced by non-electronic means.
See Fed.R.Civ.P.6(d), Fed.R.Crim.P.45(c) and Local Rule 7.1(c)(1)(A). Parties are
advised that the response deadlines automatically calculated in CMECF do NOT account
for and may NOT be accurate when service is by mail. Parties may NOT rely on response
times calculated in CMECF, which are only a general guide, and must calculate response
deadlines themselves.
See reverse side

.*•

APPENDIX-C
USCA11 Case: 20-13156

Date Filed: 05/11/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
:

■

No. 20-13156-J
LUCKNER PIERRE,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees,
Appeals from the United States District Court
for the Southern District of Florida
Before: JILL PRYOR and BRASHER, Circuit Judges.
BY THE COURT:
Luckner Pierre has filed a motion for reconsideration of this Court’s April 2, 2021, order
.:

••

denying a certificate of appealability in his appeal from the denial of his underlying habeas petition,
pursuant to 28 U.S.C. § 2254. Upon review, Pierre’s motion for reconsideration is DENIED
because he has offered no new evidence .or arguments of merit to warrant relief.

7

;

